                                                        UNITED STATES DEPARTMENT OF COMMERCE
                                                        The Inspector General
                                                        Washington. D.C. 20230


July 30, 2010

The Honorable Darrell E. Issa
Ranking Member
Committee on Oversight and Govemment Reform
United States House of Representatives
Washington, DC 20515

Dear Mr. Issa:

This letter responds to your June 24 request to the Recovery Accountability and Transparency
Board. In your letter, you asked for information regarding federal requirements for stimulus
funding recipients to post signs showing that their projects have been funded by the Recovery
Act.

You specifically requested information On: I) guidance issued to recipients of stimulus funds On
the posting of signs, logos, or emblems at Recovery Act-funded projects; 2) the statutory
authority by which federal agencies require the posting of such signs; and 3) whether any federal
agencies have relaxed any of these requirements. The original letter included a request for a cost
assessment of the signs, but the Recovery Accountability and Transparency Board has
determined that this would be best provided by the Senior Accountability Officer for each
Department replying to your request. Therefore, our response does not include information about
the costs associated with signs.

The Department of Commerce has five bureaus-the Census Bureau, the Economic
Development Administration (EDA), the National Institute of Standards and Technology (NIST),
the National Oceanic and Atmospheric Administration (NOAA), and the National
Telecommunications and Information Administration (NTIA)-that have awarded stimulus
funding. Each bureau is subject to Commerce-wide guidance for grant awards requiring that
cOnstruction projects funded by the Recovery Act display signage featuring the Recovery Act
logo. This guidance mirrors the Recovery Act guidance provided by OMB in the "General
Guidelines for Emblem and Logo Applications" issued March 20, 2009. Similar Commerce­
wide guidance does not exist for Department of Commerce contracts funded by the Recovery
Act.

In addition to Commerce's guidance on grants, agencies awarding stimulus funds are permitted
to provide further instructions regarding the sign specifications. This has resulted in varied
signage requirements across the five Commerce bureaus. For example, one agency provided
specific guidance On the size of the sign, the material used in its construction, and its placement.
Another agency required only that there be a sign and that it display the Recovery Act logo.
Enclosed is a table identifying the Department-wide requirements and the statutory authority for
the requirements, including agency-specific signage guidance. Except for a requirement for nOn­
federal employers receiving stimulus dollars to post a whistleblower protection poster on site,
there is no statutory requirement in the Recovery Act itself for the posting of signs.
We should note that the Commerce requirement for signage did not begin with the Recovery Act.
The Department's Grants Manual instructs agencies that fund construction projects to require
recipients to erect a sign at the project site indicating that the federal government is participating
in the project. Only when the major purpose of the award is construction is there a requirement
for a sign. Therefore, not all Commerce Recovery Act projects included a requirement to post a
sign. For example, Census did not use any of its funds on construction projects so it issued no
guidance to its recipients regarding signs.

There are some exceptions to the signage requirements, such as alteration of facilities (e.g.,
upgrading electrical systems) and projects in their early stages (before environmental
assessments are completed or prior to the arrival of building materials and equipment). In such
cases, a signage requirement is not applicable. Finally, our review found no instances in which a
bureau had relaxed the Commerce's Recovery Act signage policy requirements or the
implementation of those requirements.

If you have any questions or need further services, please contact me at (202) 482-4661, or
Ann Eilers, principal assistant inspector general for audit and evaluation, at (202) 482-4328.

~elY,

 !~f1·3L---
Todd J. Zinser


Enclosure



cc:    The Honorable Edolphus Towns, Chairman, Committee on Oversight and Government
            Reform
       Earl Devaney, Chairman, Recovery Accountability and Transparency Board
       Scott B. Quehl, Chief Financial Officer and Assistant Secretary for Administration,
            Senior Accountability Officer for Recovery Act, Department of Commerce
                    Department-Wide and Agency-Specific Requirements for Signs on Commerce Funded Projects
                                                  u.s. Department of Commerce, Office of Inspector General
                                                                            July 30,2010

Bureau       General Guidance                         Recovery Act Specific Guidance                                 Statutory Authoritv
Commerce     Department of Commerce Grants            Recovery Act Standard Terms and Conditions Section B.2,        Manuals issued pursuant to the authority of
-wide        Manual Chapter 17 Sections               page 3, requires all Recovery Act funded projects to display   5 U.S.C. § 301, Department Organizational
             E(2)(a)(2)(e) and E(2)(b)(7)(a)(vi) on   the Recovery Act sign throughout the construction phase.       Order 10-5, and Department Administrative
             pages 5 and 9 requires recipients to     The agency awarding funds will provide additional              Order 203-26.
             construct and maintain signs             instructions regarding specifications.
             indicating federal involvement.          http://oam.ocs.doc.gov/docs/4-27-09­
             http://oamweb.osec.doc.gov/gmd up        OAM%20ARRA%20final%20guidance%20PDF.pdf
             dated-doc.html
                                                      This guidance mirrors the Recovery Act guidance provided
             No general guidance for contracts.       by OMB in the "General Guidelines for Emblem and Logo
                                                      Applications" issued March 20, 2009, and available on the
                                                      MAX website. MAX is a website used by OMB and the
                                                      federal community to share information and collaborate.
EDA          EDA's Standard Terms and                 Recovery Act General Guidelines for Emblem and Logo            No signage requirement mentioned in
             Conditions for Construction Projects     Applications (document provided by General Services            Recovery Act or the statutes for Public Works
             require the recipient to construct and   Administration) provides specifications for logo               and Economic Development at 42 U.S.C. §
             maintain a sign indicating federal       appearance; however, no other Recovery Act specific            3121 et. seq. for EDA.
             involvement.                             guidance provided.                                             EDA's general regulations require the recipient
             http://www.eda.gov/lnvestmentsGran                                                                      of federal funds to construct and maintain a
             ts/Directives.xml                                                                                       sign indicating federal involvement in the
             (citinq 13 C.F.R. &305.12) Paqe 12                                                                      construction proiect. See 13 C.F.R. § 305.12.
NIST         NIST communicated the                    Guidance exists but it is not posted on-line."                 No signage requirements mentioned in
             Department's Grants Manual                                                                              Recovery Act or statutes for NIST at 15 U.S.C.
             signage requirements to grant                                                                           § 271 et. seq.
             recipients.                                                                                             NIST's general regulations do not address
                                                                                                                     signage. See 15 C.F.R. pts. 200-299.
NOAA         Recipients are directed to               NOAA Habitat Restoration Template provided to recipients       No signage requirements mentioned in
             Department guidance.                     for banners/signs - "Vinyl Banner Files (pdf)" under           Recovery Act or statutes for NOAA at 15
             http://www.ago.noaa.gov/ago/grants/      Outreach Resources drop down (June 2009), page 1.              U.S.C. § 311 et. seq.
             policy.cfm                               http://www.habitat.noaa.gov/partners/toolkits/recoveryact.ht   NOAA's general regulations do not address
             Chapter 17, pages 5 and 9                ml                                                             signage. See 15 C.F.R. pts. 902-999.

             No general guidance for contracts.
NTIA         None                                     The Broadband Technology Opportunities Program (STOP)          No signage requirements mentioned in statutes
                                                      has Recovery Act-specific guidance for signage.                for NTIA at 47 U.S.C. § 900 et. seq.
                                                      http://www2.ntia.doc.gov/signage, page 1. Signage              NTlA's general regulations do not address
                                                      requirements are also discussed in a STOP Recipient            signage. See C.F.R. pt. 2301; 47 C.F.R. pts.
                                                      Handbook in Section 8.1, page 103.                             300-01, 400.
                                                      http://www2.ntia.doc.gov/recipienthandbook
Source: OIG

" Printed Guidance is available upon request.

